HHS/OIG, Audit - "South Carolina Medicaid Durable Medical Equipment
Provider Enrollment Practices From March 21, 1995, Through June 30, 2005,"
(A-04-05-04010)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"South Carolina Medicaid
Durable Medical Equipment Provider Enrollment Practices From March 21, 1995,
Through June 30, 2005," (A-04-05-04010)
November 26, 2007
Complete
Text of Report is available in PDF format (1.19 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the State agency
allowed durable medical equipment (DME) suppliers to remain in the Medicaid
program after their Medicare supplier numbers had been revoked.  The State agency took no action against eight suppliers who violated Federal
standards and had their Medicare numbers revoked.  Of the eight suppliers that
we identified, the State agency paid $2,084,390 (Federal share $1,459,073) to
four suppliers after their Medicare supplier numbers were revoked.  The other
four suppliers had not billed for any DME, even though they maintained active
Medicaid supplier numbers.
We recommended the State agency revise the DME enrollment and
renewal process to include verifying the validity of an applicants Medicare DME
supplier number and consider suspending or terminating Medicaid DME suppliers
who have had their Medicare supplier numbers revoked.  The State said that
it would take our findings and recommendations under advisement.